   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




July 27, 2010

TO:             Mary Wakefield, Ph.D., R.N.
                Administrator
                Health Resources and Services Administration


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at Harbor Homes, Inc. (A-01-10-01502)


The attached final report provides the results of our review of Harbor Homes, Inc.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-01-10-01502 in all correspondence.


Attachment

cc:
Patricia Reese
Director, HRSA
Office of Federal Assistance Management/Division of Financial Integrity
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
REVIEW AT HARBOR HOMES, INC.




                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-01-10-01502
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

Harbor Homes, Inc. (HHI) has been in operation since 1980 and is a nonprofit agency that serves
the people and communities of Greater Nashua, New Hampshire by fulfilling its mission to
create and provide quality residential and supportive services for persons (and their families)
challenged by mental illness and/or homelessness. In addition to housing and supportive
services, HHI also provides substance-abuse services, health and medical care, HIV/AIDS
support, mental health counseling, and peer support and training.

HHI is funded primarily through HRSA, Veteran’s Administration, and Homeland Security
grants, Medicaid, State grants, and donations. During Federal fiscal year 2009, HRSA awarded
HHI three separate 2-year Recovery Act grants totaling $1,274,618.

OBJECTIVES

Our objective was to assess HHI’s financial viability, capacity to manage and account for
Federal funds, and capability of operating a community health center program in accordance
with Federal regulations.

                                 SUMMARY OF FINDINGS

Based on our review of HHI’s audited financial statements ending June 30, 2009, we found that
HHI would not have been considered financially viable. Specifically, its current asset to current
liability ratio was less than one and it had a negative working capital ratio. Although HHI has
provided us with unaudited financial statements as of March 31, 2010 which demonstrates that
HHI has improved its short-term liquidity, HHI has only slightly improved its long-term
stability. HHI attributes these improvements to an increase in its investment balance, a reduction
in staffing costs, a reduction in rental expenses and tightening their collection process of all
receivable balances. However, HHI needs to continue its efforts to become more financially
viable.

                                                i
HHI’s financial management system is able to adequately manage and account for Federal
funds. We also found that HHI has the capability to operate a community health center in
accordance with Federal regulations.

RECOMMENDATION

We recommend that HRSA consider the information presented in this report in assessing HHI’s
capability as a recipient of HRSA funds.

HARBOR HOMES, INC.’S COMMENTS

In its response to the draft report, the Grantee identified that its deferred loan balance should
have been backed out of the long-term stability ratio calculation. Specifically, the long-term
stability ratio for June 2009 would have decreased from approximately 87 percent to 74 percent,
and the ratio for March 2010 would have decreased from approximately 79 percent to 59 percent.
HHI stated that it is confident that the long-term stability of the organization is financially sound.
HHI’s comments are included in the Appendix.

OFFICE OF INSPECTOR GENERAL COMMENTS

We have adjusted our calculations by removing the deferred liability amounts identified in the
Grantee’s response and have revised our report accordingly. However, despite revisions to
HHI’s total liabilities and long-term stability ratio calculation, more than half of HHI’s assets
remain financed through debt, and therefore HHI will need to continue its efforts to become
more financially viable.




                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Health Center Program .................................................................................1
              Recovery Act Funds .......................................................................................1
              Requirements for Federal Grantees ...............................................................1
              Harbor Homes, Inc. ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL VIABILITY .........................................................................................4
               Federal Regulations .......................................................................................4
               Harbor Homes, Inc.’s Financial Viability ......................................................4

          RECOMMENDATION .............................................................................................5

          HARBOR HOMES INC.’S COMMENTS ................................................................5

          OFFICE OF INSPECTOR GENERAL’S COMMENTS ..........................................5

APPENDIX:

          HARBOR HOMES INC.’S COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at
42 U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations, including migrant and seasonal farm workers, the
homeless, and residents of public housing. Health centers funded by HRSA are community-
based, patient-directed organizations that meet the definition of “health center” under 42 U.S.C.
§ 254(b).

Recovery Act Funds

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA made four types of grants available to health centers to provide
for new access points, increased demand for services, facilities investment programs, and capital
improvement programs. Grants were provided to new and existing health centers, and a center
could receive more than one type of grant.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant-
related financial data. Grantees are also required to compare outlays with budget amounts for
each award and may use grant funds only for authorized purposes. In addition, Federal
regulations specify the size, composition, and responsibilities of a Grantee’s board of directors.
 The Recovery Act and Office of Management and Budget (OMB) guidance M-09-15 set forth
further requirements for transparency and accountability.




                                                1
Harbor Homes, Inc.

Harbor Homes, Inc. (HHI) has been in operation since 1980 and is a nonprofit agency that serves
the people and communities of Greater Nashua, New Hampshire by fulfilling its mission to
create and provide quality residential and supportive services for persons (and their families)
challenged by mental illness and/or homelessness. In addition to housing and supportive
services, HHI also provides substance-abuse services, health and medical care, HIV/AIDS
support, mental health counseling, and peer support and training.

HHI is funded primarily through HRSA, Veteran’s Administration, and Homeland Security
grants, Medicaid, State grants, and donations. During Federal fiscal year 2009, HRSA awarded
HHI three separate 2-year Recovery Act grants totaling $1,274,618. The awards include
$930,000 for new access points, $100,650 for increased demand for services, and $243,968 for
capital improvement programs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess HHI’s financial viability, capacity to manage and account for
Federal funds, and capability of operating a community health center program in accordance
with Federal regulations.

Scope

We reviewed HHI’s audited financial statements for FYs 2007 through 2009, as well as
unaudited financial statements through March 31, 2010. We also reviewed HHI’s accounting
and personnel policies and procedures for FY 2009. This limited-scope review is part of a series
of reviews planned by the Office of Inspector General to provide oversight of funds provided by
the Recovery Act. Therefore, we did not perform an overall assessment of HHI’s internal
control structure.

We performed our fieldwork at HHI’s administrative office in Nashua, New Hampshire, during
March 2010.

Methodology

To accomplish our objectives, we;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed HHI’s HRSA grant application packages and supporting documentation;

   •    reviewed HHI’s fiscal policies and procedures related to accounting documentation and
        preparation of financial reports;

                                                2
   •   reviewed HHI’s administrative procedures related to personnel, conflict resolution, and
       nonfinancial matters;

   •   reviewed HHI’s procedures in place to address the Recovery Act reporting requirements;

   •   performed liquidity and stability analyses of HHI’s finances for FY 2007 through 2009
       and as of March 2010 to determine whether HHI was financially viable;

   •   reviewed HHI’s audited financial statements and audits conducted pursuant to OMB
       Circular A-133 for FYs 2007 through 2009;

   •   interviewed HHI’s personnel to gain an understanding of HHI’s operations;

   •   reviewed minutes from HHI’s Board of Directors’ meetings; and

   •   discussed findings with HHI’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our review of HHI’s audited financial statements ending June 30, 2009, we found that
HHI would not have been considered financially viable. Specifically, its current asset to current
liability ratio was less than one and it had a negative working capital ratio. Although HHI has
provided us with unaudited financial statements as of March 31, 2010 which demonstrates that
HHI has improved its short-term liquidity, it has only slightly improved its long-term stability.
HHI attributes these improvements to an increase in its investment balance, a reduction in
staffing costs, a reduction in rental expenses and tightening their collection process of all
receivable balances. However, HHI needs to continue its efforts to become more financially
viable.

HHI’s financial management system is able to adequately manage and account for Federal
funds. We also found that HHI has the capability to operate a community health center in
accordance with Federal regulations.




                                                  3
FINANCIAL VIABILITY

Federal Regulations

Pursuant to 45 CFR § 74.14, grantees should be financially viable. Specifically, this regulation
states that the awarding agency may impose additional requirements as needed if an applicant or
recipient has a history of poor performance or is not financially stable.

Harbor Homes, Inc.’s Financial Viability

We determined that as of June 30, 2009, HHI would not be considered financially viable by
analyzing its short-term liquidity, defined by the ratio of its assets to its liabilities, and its long-
term stability, defined by its reliance on debt for asset formation. Although HHI has provided us
with unaudited financial statements as of March 31, 2010 which demonstrates that HHI has
improved its short-term liquidity, it has only slightly improved its long-term stability.

Short-Term Liquidity

HHI has improved its short-term liquidity since June 2009.

Specifically:

    •   HHI’s current assets-to-liabilities ratio (current assets divided by current liabilities)
        increased from 0.8 to 1.3 between the end of June 2009 and March 31, 2010. Generally,
        for an organization to be considered fiscally sound, its current assets should be valued
        higher than its current liabilities.

    •   HHI’s working capital (current assets minus current liabilities) increased between the end
        of June 2009 and March 31, 2010, from a negative $260,034 to a positive $446,452.
        Positive working capital is a common measure of an organization’s liquidity, efficiency,
        and overall health.

HHI attributes its improved liquidity between FY ending June 30, 2009 and March 31, 2010 to
organizational changes, including:

    •   Implementing a five percent pay decrease for executive employees,
    •   Reducing its workforce through layoffs,
    •   Reducing benefits and requiring employees to take furlong days,
    •   Reducing rental expense, and
    •   Tightening the collections process on all accounts receivable

Long-Term Stability

HHI’s total debt (liabilities) for June 2009 was $5,701,008 and its total assets were $7,747,830.
Thus, approximately 74 percent of HHI’s assets were financed through debt, indicating that the
grantee does not currently have long-term stability. HHI’s long-term stability improved slightly

                                                   4
as of March 31, 2010 as HHI’s total debt was $7,269,837 and its total assets were $12,299,326,
resulting in approximately 59 percent of HHI’s assets being financed through debt. In general,
the lower an organization’s reliance on debt for assets formation, the greater the organization’s
long-term stability because excessive debt can lead to heavy interest and principal repayment
burden.

RECOMMENDATION

We recommend that HRSA consider the information presented in this report in assessing HHI’s
capability as a recipient of HRSA funds.

HARBOR HOMES, INC.’S COMMENTS

In its response to the draft report, the Grantee identified that its deferred loan balance should
have been backed out of the long-term stability ratio calculation. Specifically, the long-term
stability ratio for June 2009 would have decreased from approximately 87 percent to 74 percent,
and the ratio for March 2010 would have decreased from approximately 79 percent to 59 percent.
HHI stated that it is confident that the long-term stability of the organization is financially sound.
HHI’s comments are included in the Appendix.

OFFICE OF INSPECTOR GENERAL COMMENTS

We have adjusted our calculations by removing the deferred liability amounts identified in the
Grantee’s response and have revised our report accordingly. However, despite revisions to
HHI’s total liabilities and long-term stability ratio calculation, more than half of HHI’s assets
remain financed through debt, and therefore HHI will need to continue its efforts to become
more financially viable.




                                                  5
APPENDIX
                           APPENDIX: HARBOR HOMES, INC.'S COMMENTS
                                                                                                                            Page 1 of 3

                                                      &~                                               

45 High Street
Nashua, NH 03060
                                                       HARBOR                                                            Phone: 603-882-361 6
                                                                                                                                603-881-8436
www.harborhomes.org                                   HOMES, INC.                                                          Fax: 603-595-7414

                       A Beacon for the Mentally III and Homeless for Over 2S Years



       June 16,2010


       Department of Health & Human Services
       Office of Inspector General
       Office of Audit Services
       Region 1
       John F. Kennedy Federal Building
        Room 2425
        Boston, Ma 02203


        An: Michael Armstrong
        RE: Results of Limited Scope Review


        Dear Mr. Armstrong:


        We are in receipt of the draft Limited Scope Review Report of Harbor Homes, Inc. dated June 10, 2010.
        We noted that there is one finding relating to the Long-Term Stability of the Organization. The following
        is Management's response.


        The overall mission of Harbor Homes, Inc. is to provide quality residential and supportive services for
        persons (and their families) challenged by mental illness and/or homelessness. With this mission comes
        substantial investment in properties to house these individuals resulting in substantial long-term debt.
        However, within the long-term debt are loans that are considered to be deferred that have no
        expectation or requirement of repayment as long as the property is operated as affordable rental
        housing.


        These deferred loans are grants from the New Hampshire Housing Finance Authority (NHHFA) or the 

        Federal Home Loan Bank. These funding sources require that the grants be recorded as a mortgage 

        backed property which requires them to be recorded as long-term mortgages. 



        According to the auditors and NHHFA, see Note 13 in the June 30, 2009 audited financial statements and
        the letter from NHHFA, subsequently emailed for your records, which defines the requirements of these
        types of loans. At June 30, 2009 and March 31, 2010, the deferred loan balance was $1,038,485 and
        $2,389,088, respectively. It is Managements opinion that these amounts be backed out ofthe Long­
        Term Stability ratio calculation.



                                                           Peter Kelleher President and CEO 

                                                                      Board of Directors 

                    Edward B. Hall, Jr. (Tedl Chair Thomas I. Arnold Vice Chair bavid Aponovich Treasurer Joel Jaffe Secretary 

                          Sr. Lorraine Arsenault. p.m. Robert Fischer Betty Hall Robert Kelliher Wanda Kennerson Naomi Moody
                                                                                                                                          @
                                                                                                                                          EQUAl HOUSING
                                                                                                                                          OPPORTUNITY
                              Patrice O'Donnell Pamela O'Neil Trent Smith Paul Thibodeau Lynne Weihrauch Betty J. Winberg
                                                                                                 Page 2 of 3



This would affect the ratio calculation as follows:


June 30, 2009: the percentage of HHl's assets financed through debt decreased from 87% to 74%
March 31, 2010: the percentage of HHl's assets financed through debt decreased from 79% percent to
59%.


The Organization has been in business for approximately 30 years and has invested heavily in property
to house the homeless and mentally challenged. Over the years, HHI has purchased approximately 25
properties. Per Generally Accepted Accounting Principles, the values of the buildings remain on the
books at net book value. These buildings have been repaired, upgraded and maintained over the years
and the equity in the buildings is not reflected in the ratio calculations showing the true value of the
assets against the long-term debt.


 We would like to note the following:
Equity                                                      Book Value              Replacement Value
Value of fixed assets:                                     $ 5,839,324                 $ 15,429,000
Assets financed by long-term debt                           $ 3,931,269                $ 3,931,269
Total equity                                                $ 1.908,055                $ 11.497,731

 Replacement value is based on the insured cost at June 30, 2009. Based on the above, the Organization
is in a good financial equity position.


 Management is constantly working to reduce the liabilities and increase the assets and with the
 implementation of a corrective action plan beginning in February, we have increased our cash flow and
 profits over the last four months,


 Additionally, the financial position is expected to improve over the next six months with the following
 additional actions:
       • 	 Major construction project will close within a few weeks that have come in with over budgeted
           donations and grants. This will result in the release of a government earmark grant for project
           development funds that will come back to the Organization and will be used to pay down the
           short term debt. It is expected that a $250K reduction on the line of credit will be paid by the
           end of August 2010.
       • 	 A previously used administrative building located in a commercial downtown district is expected
           to be sold by December 31, 2010. Equity in this building is substantial, as the mortgage balance
           is approximately $150K and estimated value is approximately $700K. With the proceeds, the
           Organization is expected to pay-down the line of credit which will decrease the current liabilities
           by another $250 and the balance of the proceeds will be put in an investment account.


 The Organization recognizes that the debt service will always be a challenge given the type of mission
 that we strive to accomplish and the great need for housing. However, Management is confident that
                                                                                                Page 3 of 3



the long-term stability is sound and has the equity and the financial capability to sustain any long-term
challenges that the Organization will face now and in the future.




v.~
Vice President of Finance
